Department of Homeland Security
   Ofﬁce of Inspector General

            Ability to Communicate with Federal 

            Air Marshals While in Mission Status 


                  (Unclassified Summary)





OIG-11-19                                      December 2010
                                                                       Ofjice ofInspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington. DC 20528




                                 DEC 2 8 2010
                                                                       Homeland
                                                                       Security
                                             Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was established by
the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector General
Act of1978. This is one of a series of audit, inspection, and special reports prepared as part of our
oversight responsibilities to promote economy, efficiency, and effectiveness within the department.

This report addresses the effectiveness of the Transportation Security Administration's
dissemination of intelligence and situational and awareness information to Federal Air Marshals,
while in mission status, to include when they are in-flight. It is based on interviews with employees
and officials of relevant agencies and institutions, direct observations, and a review of applicable
documents.


The recommendations herein have been developed to the best knowledge available to our office, and
have been discussed in draft with those responsible for implementation. We trust this report will
result in more effective, efficient, and economical operations. We express our appreciation to all of
those who contributed to the preparation of this report.



                                        C~Q\\t--
                                             Carlton 1. Mann
                                             Assistant Inspector General for Inspections
OIG
Department ofHomeland Security
Office ofInspector General

Unclassified Summary

                Federal Air Marshals provide coverage on U. S. commercial air carrier flights,
                both domestic and international, to detect, deter, and defeat hostile acts that
                target air carriers, airports, passengers, and flight crews.

                We assessed the Federal Air Marshals ability to communicate while in
                mission status. Our objectives were to determine whether: (1) the Federal Air
                Marshal Service provides Federal Air Marshals with timely and accurate
                intelligence and situational awareness information whey they are preparing for
                or are in mission status, and (2) the Transportation Security Administration
                (TSA) was maximizing its communication capabilities to ensure that Federal
                Air Marshals who are in mission status can receive and send time-sensitive,
                mission-related information through secure communication while in flight.

                TSA's Office ofIntelligence (Or) reviews, synthesizes, and analyzes
                transportation specific intelligence. or coordinates and shares information
                with Department of Homeland Security components, the intelligence and law
                enforcement communities, other government agencies, and the transportation
                industry. or also assists the Federal Air Marshal Service (FAMS) by creating
                products that provide a framework to prioritize security resources.

                The FAMS Office of Administration and Technical Services is responsible for
                the management of the Air to Ground Communications program. Through
                this program, FAMS is pursuing communication capabilities for Federal Air
                Marshals.

                We made recommendations to enhance the Federal Air Marshals' ability to
                receive intelligence and situational awareness information when they are
                preparing for or are in mission status.




              Ability to Communicate With Federal Air Marshals While In Mission Status

                                               Page 1
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
